OIG Audit Report GR-90-07-001

Office of Justice Programs, Regional Information Sharing Systems Grant Awarded to the California Department of Justice, Sacramento, California

Audit Report GR-90-07-001


June 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the Regional Information Sharing Systems grant (2002-RS-CX-0005) awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), to the California Department of Justice (CA DOJ), Western States Information Network (WSIN), Sacramento, California.1    As of June 30, 2005, the CA DOJ was awarded a total of $13,811,826 for this grant, which included two supplemental awards.2 The purpose of the initial award was to fund WSINs efforts to assist law enforcement in reducing narcotic-related crime by collecting, analyzing and disseminating information relative to illegal narcotic activity.  The supplemental awards were to allow for the continuation of WSINs support to member agencies in combating multi-jurisdictional crime and criminal conspiracies by enhancing the ability of state and local agencies to identify, target, and remove criminal conspiracies and activities spanning multi-jurisdictional and multi-state boundaries.
 The objective of the audit was to determine whether cost reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 
 We tested the CA DOJ’s compliance with essential grant conditions, including grant drawdowns, budget management and control, grant expenditures, program income, and grant reporting. We found that the grantee generally complied with grant requirements and the minor exceptions that we noted during our audit were immediately corrected. During our review we identified a risk that intelligence-related information belonging to the CA DOJ would not be shared with all WSIN members.3  After discussing this matter with CA DOJ officials, we were assured that the intelligence-related information would continue to be shared with all WSIN members. 
 As a result, we made two recommendations and discuss these matters in the Findings and Recommendations section of this report. Our audit objective, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with CA DOJ and WSIN officials. In addition, we provided the grantee and OJP with a draft of our report and requested formal responses, which have been appended to this report. 



Footnotes

CA DOJ is the grantee for this grant and is responsible for the financial reporting. WSIN is responsible for performing all the grant tasks. 
CA DOJ received a total of three awards, each was awarded under the same grant number of 2002-RS-CX-0005.
The intelligence-related information relates to possible suspects (or subjects) of investigations and includes names, occupations, addresses, informant status, telephone numbers, violence potential, physical descriptions, crime areas, associates and other law enforcement agencies that have or had an ongoing investigation.








Return to OIG Home Page